No. 19INTHE

~upreme QI:ourt of tbe mniteb ~tate~
STEVE RAY EVANS,

Petitioner,
V.

SANDY CITY, et al.

Respondents.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Tenth Circuit
CERTIFICATE OF SERVICE

I, Jaime A. Santos, a member of the Bar of this Court, certify pursuant to
Supreme Court Rules 29.3 and 29.5 that I have, this 2nd day of March 2020, served
three copies of the Petition for a Writ of Certiorari upon each party separately
represented in this proceeding by causing the copies to be delivered by first-class
mail to counsel of record at the address listed below:
Troy L. Booher
Zimmerman Booher
341 South Main Street, Suite 400
Salt Lake City, l'"T 84111
tbooher@zbappeals.com

In addition, pursuant to Supreme Court Rule 29.3, I have caused electronic
copies of all documents to be filed with the Clerk and served on counsel of record at
the email address listed above.
I further certify that all persons required to be served have been served.

March 2, 2020

LLP

1900 N Street, N.W.
Washington, DC 20036
jstantos@goodwinlaw.com
(202) 346-4000

Counsel for Petitioner

2

